                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: Al3050066                                                                   Page 1 of 1



                 We assessed an allegation that material in a manuscript submitted for publication1 was
         drawn from submitted and declined NSF proposals? There is no overlapping copied text or lists
         of references in the manuscript and in the proposals. There was no support for an alleged
         copying of a result coding scheme because the submitted proposals do not contain such a scheme.
          A chronology showed that the work described in the manuscript was performed concurrently
         with proposal submissions. We therefore find no evidence of any connection between the
         dissertation work, the submitted manuscript, and the proposals submitted to NSF, and therefore
         no support for the allegation of copied ideas.

                   This case is closed with no further action taken.




NSF OIG Fonn 2 (11102)
